               PUBLIC
              RELEASE


             NATIONAL INSTITUTE FOR
         STANDARDS AND TECHNOLOGY

   Advanced Technology Program Can Benefit
From Financial and Management Improvements

             Audit Report No. ENT-8984-7-0001 / July 1997




               Office of Audits, Technology Audits Division
                                             TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION                .........................................................1

         Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS                                 ......................................6

         NIST Needs to Reevaluate Use of Incremental
         Funding for Multi-year, Non-severable ATP Awards                            ..........................6

                  Recommendations             ..............................................9

                  Agency Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

         NIST Should Maintain Records to Accurately Track ATP’s Unfunded
         Balance and Fully Disclose the Amount in Its Annual Financial Statements . . . . . . . . . 12

                  Recommendations             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  Agency Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         ATP Award Process Needs Better Management Controls . . . . . . . . . . . . . . . . . . . . . . 14

                  Recommendations             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                  Agency Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Appendix A - ATP Budget History

Appendix B - New ATP Awards Resulting from FY 1994 and FY 1995 Competitions

Appendix C - ATP Awards by FY 1995 Competition

Appendix D - NIST Response to Draft Report
Advanced Technology Program Needs                                                       Audit Report
Financial and Management Improvements                                                     July 1997




                                   EXECUTIVE SUMMARY

The Advanced Technology Program is one of four major programs managed by the National
Institute of Standards and Technology. ATP was established by the Omnibus Trade and
Competitiveness Act of 1988, and amended by the American Technology Preeminence Act of
1991, to promote the economic growth and competitiveness of U.S. business, especially small
business, by accelerating the development and commercialization of promising high-risk
technologies. ATP is a cost-sharing program that provides funds to joint ventures and single
companies for research and development on pre-competitive generic technologies.

We performed our audit to assess (1) management controls over NIST’s FY 1995 ATP final
award process, and (2) the method used for funding ATP projects. Our audit found that NIST
used incremental funding for non-severable research awards that are expected to last more than
one year, and must rely on future appropriations to complete those ongoing projects. However,
NIST did not comply with Departmental requirements for incremental funding because the grants
officer did not certify that project activities for FY 1995 awards were severable into annual
increments which represented solid accomplishments (see page 6).

We also found that NIST accumulated about $155.3 million of unfunded balances for ATP
projects which should be disclosed in the overview and notes to its annual financial statements to
provide management and policy-makers with more complete information for use in making
financial management decisions (see page 12), and did not adequately control the FY 1995 ATP
final award process (see page 14).

To correct the deficiencies associated with incremental funding and to ensure compliance with
appropriate laws and regulations, we recommend that the Acting Director, NIST, require that all
prior year ATP awards not funded for the entire project period be thoroughly reviewed and take
the following actions:

       o       Ensure the preparation of required grants officer certifications of severability for all
               awards which are severable and have defined work products each year.

       o       Fully fund the remaining awards which are not severable and do not have
               defined work products each year before obligating funds for new ATP awards
               (see page 9) .



                                                  i
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




Additionally, for all new ATP awards, we recommend that the Acting Director, NIST:

       o      Ensure the preparation of required grants officer certifications of severability for all
              awards which are severable and have defined work products each year.

       o      Fully fund up-front those awards which are not severable and do not have defined
              work products each year (see page 9).

To ensure proper disclosure of the ATP unfunded balance, we recommend that the Acting
Director, NIST:

       o      Ensure that auditable records are maintained to accurately track the ATP unfunded
              balance amount of $155,294,241 at September 30, 1996.

       o      Fully disclose the ATP unfunded balance amount in the overview and notes to
              NIST’s annual financial statements (see page 13).

To strengthen management control over future ATP awards, we recommend that the Acting
Director, NIST:

       o      Ensure that ATP awards are announced and notification letters are sent to
              successful applicants only after grants specialists have completed their financial
              reviews and final award process work.

       o      Direct the appointment of grants specialists to ATP Source Evaluation Boards to
              demonstrate the importance of their work, and to involve them earlier and more
              substantially in the ATP proposal review and selection process.

       o      Ensure the development and implementation of a system to identify and track ATP
              award agreements with contingency clauses to prevent the disbursement of funds
              to recipients before all contingencies are resolved (see page 15).

NIST, in its response to the draft report, generally agreed with the report recommendations. We
have made appropriate revisions to the draft report based upon subsequent discussions with NIST
officials and NIST’s comments to the draft report. A summary of NIST’s response to the draft
report, along with our comments, is included in each section. NIST’s complete response is
attached (see Appendix D).

We appreciate the cooperation and courtesies extended us by NIST officials during our audit.

                                                 ii
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




                                        INTRODUCTION

The Advanced Technology Program is one of four major programs managed by the National
Institute of Standards and Technology. ATP was established by the Omnibus Trade and
Competitiveness Act of 1988, and amended by the American Technology Preeminence Act of
1991, to promote the economic growth and competitiveness of U.S. business, especially small
business, by accelerating the development and commercialization of promising high-risk
technologies. The FY 1997 ATP appropriation is $225 million, representing about one-third of
NIST’s total budget. In addition, NIST has available no-year carryover funds of $41.7 million.

ATP is a cost-sharing program that provides funds to joint ventures and single companies for
research and development on pre-competitive generic technologies. Joint ventures may be funded
for up to five years, with no statutory funding limit. Joint ventures must provide more than 50
percent of the total funding (direct and indirect costs) for each quarter that ATP funds the project.
Single companies are eligible to receive up to $2 million of ATP funds over a period not to exceed
three years. They are not required to provide matching funds, but they are reimbursed for direct
costs only. All indirect costs must be paid by the company. ATP awards are made through
competitions in which research proposals from single companies and joint ventures compete for
available funds. Criteria for evaluating and selecting proposals are derived from the 1988 Act and
the 1991 amendment, and are published at 15 CFR 295. They include the rigorous evaluation of
each project’s technical and business merits.

The ATP is a competitive cost-sharing program designed to assist U.S. industry to pursue high-
risk, enabling technologies with significant commercial and economic potential. The program has
enjoyed a measure of success in its early years, but NIST maintains that the program’s true worth
cannot be gauged for many years because of the long-term nature of most funded research
projects. ATP’s budget grew from $10 million in FY 1990 to $341 million in FY 1995 (see
Appendix A). During that time, ATP evaluated 2,210 proposals and made 280 awards--102 joint
venture and 178 single-company awards--for nearly $2 billion of research. Private industry
provided $1.01 billion and ATP provided $970 million. Since inception of the program in 1990,
36 percent of ATP awards and 68 percent of ATP funds have gone to joint ventures.

With few exceptions, ATP awards expected to last more than one year have been funded one year
at a time. NIST used FY 1996 ATP appropriations of $221 million to fully finance the unfunded
balance of all earlier ATP awards, except for one award resulting from the FY 1993 competition,
three awards from the FY 1994 competitions, and 81 of 102 awards from the FY 1995
competitions. At the end of FY 1996, ATP’s unfunded balance was about $155.3 million.
Separating this amount into annual funding requirements to complete existing projects that were

                                                 1
Advanced Technology Program Needs                                                     Audit Report
Financial and Management Improvements                                                   July 1997




not fully funded up-front results in a need for $111.4 million in FY 1997, $32.2 million in
FY 1998, and $11.7 million in FY 1999. ATP plans to finance these requirements through
appropriations in the corresponding fiscal years.

Added to the annual funding requirements for ATP awards of prior years are those for eight new
awards totaling $19.4 million that were announced on March 6, 1997, and the additional new
awards that ATP expects to result from seven announced FY 1997 competitions. While funds
had not been obligated for the new and expected awards as of March 15, 1997, ATP assumes the
awards will be funded incrementally, one year at a time, and has estimated annual funding
requirements for planning purposes. Table 1 depicts ATP-estimated annual funding requirements
for the new and expected awards, along with those for the previously discussed prior year awards
that have not been fully funded.

Table 1: Estimated Annual Funding Requirements for Actual and Expected ATP Awards
         Resulting from FY 1993 through FY 1997 Competitions
                                  (dollars in millions)

 Fiscal Year                       Estimated Annual Funding Requirements
   of ATP
 Competition        FY 1997      FY 1998       FY 1999       FY 2000      FY 2001             Total


 1993-1995            $111.4         $32.2          $11.7        $0.0          $0.0       $155.3



 1996                   $6.3          $6.9           $4.6        $1.6          $0.0           $19.4



 1997                 $112.0        $112.0          $84.3       $56.0         $27.7       $392.0



 Total                $229.7        $151.1       $100.6         $57.6         $27.7       $566.7


Of the amounts shown in Table 1, about $3.3 million in FY 1997 funding requirements for awards


                                                2
Advanced Technology Program Needs                                                    Audit Report
Financial and Management Improvements                                                  July 1997




resulting from the FY 1993-FY 1995 competitions had been obligated as of March 15, 1997, and
NIST expects to obligate the remaining FY 1997 requirement of $108.1 million before the end of
this fiscal year. After allowing for $111.4 million for the awards resulting from the FY 1993-FY
1995 competitions plus $6.3 million for the awards resulting from the FY 1996 competition, the
unfunded balance for those prior year awards will total $57.0 million. The remaining FY 1997
and carryover ATP funds available for obligation will be about $149 million. In addition, for FY
1998, the President’s budget submission to Congress includes $275.6 million for ATP.

Various aspects of the Advanced Technology Program have been studied by a number of public
and private organizations, including our office, the U. S. General Accounting Office, the National
Academy of Sciences, and the Council on Competitiveness, and the results have been generally
positive. Our previous work focused on ATP’s processes and procedures for selecting,
monitoring, and evaluating project proposals.1 Overall, that work found significant improvement
over the program’s earlier years. This audit concentrated on the management of ATP in terms of
program funding and the final award process.

ATP’s future is uncertain. In 1994, the President set a goal for ATP’s funding to reach $750
million by FY 1997, and for the first five years of the program, ATP’s budget increased
dramatically each year. However, in the latter half of FY 1995, the Congress rescinded $90
million of ATP funds from that year’s appropriation. Also, the Congress initially proposed a
number of restrictions on the use of FY 1997 ATP funds and even considered terminating the
program, but the limitations were eventually removed from the final budget and ATP survived
with funding of $225 million.

Purpose and Scope of Audit

The purpose of our audit was to assess (1) the management controls over NIST’s FY 1995 ATP
final award process, and (2) the method for funding ATP projects. To accomplish our work, we
selected two separate, stratified samples of ATP awards, one for each part of our purpose;
reviewed, extracted and analyzed information from ATP competition, program, and grant files;
and interviewed NIST grant and program officials. Regarding our assessment of management
controls over the FY 1995 competitions, we selected a stratified sample of 26 of 102 (25 percent)
ATP awards. The sample was comprised of high and low dollar value awards from each of the 12


       1
        The Advanced Technology Program Must Improve Documentation of Selection
Decisions, TTD-7074-5-0001 / July 1995; and ATP Has Improved Procedures for Selecting,
Monitoring, and Evaluating Projects, TTD-8089-6-0001 / February 1996.

                                                3
Advanced Technology Program Needs                                                   Audit Report
Financial and Management Improvements                                                 July 1997




competitions. We also analyzed information regarding the number and amount of awards made
from July through September 1995 and in January 1996, and reviewed competition files for all 12
FY 1995 ATP competitions.

In reviewing the method for funding ATP projects, we selected a second stratified sample of 24 of
188 (13 percent) of ATP awards resulting from the FY 1994 and FY 1995 competitions. Similar
to the first sample, we selected a range of high and low dollar value awards from each of the six
FY 1994 competitions and 12 FY 1995 competitions. We reviewed the grant files for the 24
awards, and extracted and analyzed information from these files. We also interviewed
Departmental budget, financial assistance, and legal officials, as well as NIST grants, program,
budget, and accounting officials. Further, we discussed incremental funding with the GAO. We
obtained and analyzed program, budget, procurement, and accounting information related to all
280 ATP award agreements and modifications, and compared negotiated ATP awards to related
obligations to determine the ATP unfunded balance at September 30, 1996.

We reviewed laws, regulations, policies, and procedures concerning ATP and financial assistance,
management, and control. These included the Advanced Technology Program statute (15 U.S.C.
278n); the ATP Rule (15 CFR Part 295); OMB Circular No. A-110, revised November 19, 1993,
Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations; OMB Bulletin No. 94-01, Form and
Content of Agency Financial Statements; Department of Commerce Financial Assistance Notice
(FAN) Number 10 regarding multi-year program designation and awards; General and Special
Award Conditions for Advanced Technology Program participants; the ATP Proposal Preparation
Kit and Supplement; the Antideficiency Act (31 U.S.C. 1341); the Federal Managers’ Financial
Integrity Act; the Chief Financial Officers Act; Comptroller General Decision B-240264,
Incremental Funding of U.S. Fish and Wildlife Service Research Work Orders (February 7,
1994); and 43 Comp. Gen. 657 (1964) regarding incremental funding of multi-year awards using
no-year funds. NIST was in compliance with these laws, regulations, policies, and procedures,
except for FAN Number 10, the Chief Financial Officers Act, and the Federal Managers’ Financial
Integrity Act, which are discussed on pages 6 through 15 of this report.

We evaluated NIST’s management controls over the FY 1995 ATP final award process. Our
findings are contained on pages 12 through 15 of this report. During our audit, we relied upon
computer-processed data products generated from the procurement data base. While we did not
assess the relevant general and application controls, we conducted other substantive tests of the
data to ensure that it was sufficiently reliable. We conducted our audit from July 1996 through
January 1997 at NIST, Gaithersburg, Maryland, and the Department of Commerce headquarters,
Washington, D.C.

                                                4
Advanced Technology Program Needs                                                Audit Report
Financial and Management Improvements                                              July 1997




The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department of Commerce Organization Order 10-13, dated May 22, 1980, as amended.




                                              5
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




                          FINDINGS AND RECOMMENDATIONS

 NIST needs to (1) reevaluate its use of incremental funding for multi-year ATP research grants
to minimize the risk of non-severable projects not being completed due to reductions in, or the
elimination of, future funding; (2) fully disclose the ATP unfunded balance in its annual financial
statements to ensure that its year-end financial condition is fairly presented and policy-makers
have complete information to use in making financial management decisions; and (3) strengthen
management controls over the ATP final award process.

NIST Needs to Reevaluate Use of Incremental
Funding for Multi-year, Non-severable ATP Awards

NIST uses incremental funding2 as the principal method for financing its ATP research grants. By
funding such grants one year at a time, NIST has to rely on future appropriations to fund the
remaining years of awards and, accordingly, runs the risk that funding may not be available to
complete the projects. Also, for FY 1995 projects that were incrementally funded, NIST did not
comply with the Departmental regulation which requires the grants officer to certify that project
activities are severable into annual components which represent solid accomplishments.

In August 1994, NIST received Departmental approval to designate ATP as a multi-year financial
assistance program. Multi-year program designation enables Departmental financial assistance
programs to make awards for periods of more than one year even though the program does not
have enough money to fund the entire award period. With this designation, funding agencies are
permitted to obligate funds for a one year budget period and anticipate options to renew for up to
two additional years. ATP received an exception to the general rule and was given approval to
renew award agreements for up to four additional years.

Designation of the ATP as a multi-year program makes it subject to Department Financial
Assistance Notice Number 10, issued September 24, 1992. FAN Number 10 sets forth guidelines
and procedures for all multi-year assistance awards and requires that each year’s activities be
severable and represent solid accomplishments if prospective funding is not made available to the


       2
         Incremental funding is the annual financing of projects that are intended to last more than
one year. The use of incremental funding is not proper for projects which require more than one
year to complete and are not severable into annual segments with defined work products to be
developed each year. The full amount required to complete such projects should be obligated at
the time of initial award.

                                                 6
Advanced Technology Program Needs                                                     Audit Report
Financial and Management Improvements                                                   July 1997




recipient.3 By requiring that each funded segment of an ATP multi-year award produce
something of value, FAN Number 10 attempts to ensure that the government will not be harmed if
future funding is not received.

We selected a stratified sample of 24 of 188 (13 percent) ATP awards resulting from the FY 1994
and FY 1995 competitions, as shown in Appendix B, and found that the required grants officer
certifications of severability were not prepared for all ATP projects. As shown in Table 2, 4 of
the 24 awards were not required to have certifications of severability because they were fully
funded up-front or closed in the first year; 5 awards contained the severability certifications; and
15 awards (63 percent) were missing the required certifications of severability.

Table 2: Certifications of Severability (dollars in millions)

 Certification                                          Number                            Amount
 Not Required                                                   4                            $40.1
 Yes                                                            5                             44.2
 No                                                            15                            105.9
 Total                                                         24                          $190.2

The 15 awards without severability certifications included 2 of 11 sampled FY 1994 awards and
all 13 sampled FY 1995 awards. The grants officer told us that certifications of severability were
not prepared for any awards after the FY 1994 competitions based on guidance from the
Department’s Office of General Counsel (OGC). Therefore, none of the 102 FY 1995 awards
were certified as severable. The OGC attorney-advisor to the grants office did not recall
providing such guidance and acknowledged that such certifications were still required by FAN


         3
         The severability requirement of FAN Number 10 was more explicitly defined in
Comptroller General Decision B-240264, Incremental Funding of U.S. Fish and Wildlife Service
Research Work Orders, issued February 7, 1994. The decision stated that the practice of funding
multi-year projects only one year at a time was prohibited unless a project could be separated into
annual components with defined work products completed at year’s end. We used this
definition to guide our judgements in deciding whether projects in our sample were severable (see
Table 3).


                                                 7
Advanced Technology Program Needs                                                    Audit Report
Financial and Management Improvements                                                  July 1997




Number 10 (page 3, paragraph .03.c.5). Since ATP was designated a multi-year program in
1994, it was bound by FAN Number 10 requirements, including the need for the grants officer to
certify that each project’s activities were severable into annual components and represented solid
accomplishments. By not certifying that project activities were severable, NIST had no assurance
that recipients of the $411.2 million in FY 1995 ATP awards (see Appendix C) would engage in
work that annually yielded solid accomplishments. Thus, NIST had no way of knowing whether
the government’s investment in such ATP research would yield productive results if these projects
were not funded to completion.

We reviewed the project proposals for the 20 awards in our sample that required a grants officer’s
certification of severability, and we made an independent assessment of severability. For the five
awards in our sample that had certifications of severability, we determined that only one award
was expected to produce defined work products by the end of each year; four awards did not
show, or it was questionable, whether defined work products were to be completed each year.
For the 15 awards without a certification of severability, we found that 8 awards clearly showed
defined work products to be delivered by the end of each year; 7 awards did not show, or it was
questionable, whether defined work products were to be completed each year. In sum, as
depicted in Table 3, we concluded that only 9 of the 20 awards (45 percent) were clearly
severable. However, those awards did constitute $93.3 million (62 percent) of the total
$150.1 million in awards.

Table 3: 20 Awards Requiring Certifications of Severability (dollars in millions)

                      Sampled Awards            Sampled Awards
 Defined Work              With                     Without
 Product Each           Severability              Severability                 TOTALS
     Year              Certification              Certification
                    Number        Amount       Number        Amount      Number       Amount

 Yes                        1        $31.5             8        $61.8            9        $93.3
 No                         2          8.7             4          36.5           6         45.2
 Questionable               2          4.0             3           7.6           5         11.6
 Total                      5        $44.2           15        $105.9           20      $150.1



                                                8
Advanced Technology Program Needs                                                       Audit Report
Financial and Management Improvements                                                     July 1997




The use of incremental funding is not the most prudent financing choice for projects that require
more than one year to complete and are not severable. Funding such grants one year at a time is
risky because future funding may not be available to complete the projects. In our view, several
factors contributed to NIST’s questionable use of incremental funding for ATP projects. First,
ATP’s priority was focused on maximizing the number of grants awarded. By funding projects
one year at a time, management could make many more awards than if they fully funded all
projects up-front. Because award amounts ranged from $482,000 to $31.5 million, it would not
take many projects on the high end of the range to quickly exhaust the ATP budget. Second,
NIST believed that future funding for ATP was certain. Third, the grants officer was unaware of
the requirements associated with incremental funding of multi-year awards. Fourth, legal reviews
were not sufficiently thorough to identify the problem.

Recommendations

To correct the deficiencies associated with incremental funding and to ensure compliance with
Departmental requirements, we recommend that the Acting Director, NIST, ensure that all prior
year ATP awards not funded for the entire project period are thoroughly reviewed and take the
following actions:

       1.      Ensure the preparation of required grants officer certifications of severability for all
               awards which are severable and have defined work products each year.

       2.      Fully fund the remaining awards which are not severable and do not have defined
               work products each year before obligating funds for new ATP awards.

Additionally, for all new ATP awards, we recommend that the Acting Director, NIST:

       3.      Ensure the preparation of required grants officer certifications of severability for all
               awards which are severable and have defined work products each year.

       4.      Fully fund up-front those awards which are not severable and do not have defined
               work products each year.

Agency Response and OIG Comment

Recommendation No. 1: NIST generally agreed with the recommendation. NIST stated that all
FY 1994 and prior competition awards have been fully funded and the Congress has been
informed that all FY 1995 competition awards will be fully obligated. Therefore, no certifications

                                                  9
Advanced Technology Program Needs                                                       Audit Report
Financial and Management Improvements                                                     July 1997




will be required for these awards. NIST stated that ATP will review projects funded under the
FY 1996 General Competition to ensure compliance with the severability requirements and take
appropriate action, if necessary, to work with the recipients to define technical milestones. NIST
said that upon completion of this review, the NIST Grants Officer will document the required
certification in the official award file.

NIST’s response to these recommendations may reflect a misunderstanding of the criteria for
deciding whether projects are eligible for incremental funding. For projects to be eligible for
incremental funding, the scopes of work must be severable into annual increments of meaningful
work which represent solid accomplishments. Technical milestones merely enable the agency to
gauge whether project recipients are making satisfactory progress towards the achievement of the
purposes for which the awards were made. Milestones do not necessarily represent the
achievement of solid accomplishments, particularly defined work products. We caution NIST to
ensure that the milestones it selects to justify incremental funding reflect annual increments of
meaningful work which represent solid accomplishments. However, the proposed action, if
properly implemented, will meet the intent of the recommendation.

Recommendation No. 2: NIST generally agreed with the recommendation, stating that
implementation will not be necessary because ATP will have fully funded all projects awarded
through the FY 1995 competitions. NIST further stated that ATP will review projects funded
under the FY 1996 General Competition to ensure compliance with the severability. The
proposed action, if properly implemented, will meet the intent of the recommendation.

Recommendation No. 3: NIST generally agreed with the recommendation, stating that the ATP
technical project manager must ensure that projects selected for funding contain clearly defined
quantitative technical milestones and assess severability. If not clearly defined, NIST will make
every effort to obtain the required information from the applicant prior to the award. If additional
time is necessary, a contingency clause could be included in the award stipulating that this issue
must be addressed within a prescribed time frame and that no funds may be disbursed until such
time as the contingency has been satisfied. ATP will provide a statement on the CD-435,
Procurement Request, regarding severability. The Grants Officer will also review the proposed
project to determine the severability of the project and will place a certification into the official
award file or include the required contingency clause in the award, if necessary. The proposed
action, if properly implemented, will meet the intent of the recommendation.

Recommendation No. 4: NIST stated that implementation of this recommendation will not be
necessary, as ATP plans to take action as described in Recommendation No. 3. That is, NIST
apparently plans to evaluate all its projects in such a manner so as to ensure that all projects are

                                                  10
Advanced Technology Program Needs                                                   Audit Report
Financial and Management Improvements                                                 July 1997




severable, and therefore can be incrementally funded. The proposed action, if properly
implemented, will meet the intent of the recommendation.




                                               11
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




NIST Should Maintain Records to Accurately Track ATP’s Unfunded Balance and
Fully Disclose the Amount in Its Annual Financial Statements

When an entity invests funds incrementally, one year at a time, in projects that are intended to last
more than one year, it has unfunded portions of the projects at year’s end. By incrementally
funding many of its ATP projects in this manner, NIST has accumulated substantial unfunded
balances, which it has not obligated from available appropriations, but which it may have to pay
from future appropriations. However, based on discussions with NIST personnel and our review
of the special award conditions for ATP grants, we understand that NIST would not have to pay
the unfunded balance for any project that is terminated prior to completion for inadequate
performance or lack of funds.

The Chief Financial Officers Act of 1990 requires federal agencies to prepare annual financial
statements that provide complete, reliable, timely, and consistent financial information for use by
the executive and legislative branches of government in the financing, management, and
evaluation of federal programs. OMB Bulletin No. 94-01, Form and Content of Agency
Financial Statements, dated November 16, 1993, provides current guidance to federal agencies
for preparation of annual financial statements. Although OMB Bulletin No. 94-01 does not
address disclosure of unfunded balances specifically, we believe that full disclosure of this amount
in the overview and notes to NIST’s annual financial statements will provide policy-makers with
more complete information for use in making sound financial and management decisions.

Since the ATP unfunded balance was not previously disclosed in NIST’s annual financial
statements, it had not been audited. The NIST official who manually tracked the unfunded
balance initially estimated the amount at September 30, 1996, to be about $155.8 million.
However, that official told us that no one had ever verified the accuracy of the ATP unfunded
balance. We conducted our own analysis to determine independently the unfunded balance. We
compared ATP-provided information on negotiated award amounts to NIST procurement system
data on obligations for each of the 280 ATP awards, and held discussions with ATP and grants
officials. We found 85 ATP projects with unfunded balances which ranged from a high of $11.7
million to a low of $65.00. Through discussions with ATP and grants officials and reviews of
supporting documentation, we were able to determine the exact amount. ATP and OIG now
agree that the ATP unfunded balance at September 30, 1996, was $155,294,241, and that amount
will serve as the baseline for reporting in future years.




                                                 12
Advanced Technology Program Needs                                                 Audit Report
Financial and Management Improvements                                               July 1997




Recommendations

We recommend that the Acting Director, NIST:

       1.     Ensure that auditable records are maintained to accurately track the ATP unfunded
              balance amount of $155,294,241 at September 30, 1996.

       2.     Fully disclose the ATP unfunded balance amount in the overview and notes to
              NIST’s annual financial statements.

Agency Response and OIG Comment

Recommendation No. 1: NIST generally agreed with the recommendation. The OIG and NIST
agreed on a September 30, 1996 baseline amount and NIST stated that it will continue to maintain
auditable records to accurately track the ATP unfunded balance. In addition, we have revised
report language to reflect subsequent discussions with NIST officials to better characterize the
ATP unfunded balance and NIST’s responsibility to disclose the amount in its annual financial
statements. The proposed action complies with the recommendation.

Recommendation No. 2: NIST agreed to fully disclose the ATP unfunded balance amount in the
overview and notes to its annual financial statements. The proposed action complies with the
recommendation.




                                              13
Advanced Technology Program Needs                                                     Audit Report
Financial and Management Improvements                                                   July 1997




ATP Award Process Needs Better Management Controls

ATP and grants officials did not adequately plan and coordinate the 12 FY 1995 competitions,
totaling over $411 million (see Appendix C), and did not employ appropriate management
controls over final award processing. NIST issued many ATP awards with contingency clauses,
instead of resolving all outstanding issues before finalizing awards. As a result, NIST ran the risk
of disbursing funds for projects before ensuring that they met all program financial requirements.
In our opinion, this occurred because NIST was concerned about the $90 million rescission of FY
1995 ATP funds and uncertainties regarding the FY 1996 federal budget impasse; the premature
public announcement of projects selected for funding; and the lack of a system for identifying and
tracking ATP awards with outstanding contingencies.

The Federal Managers’ Financial Integrity Act and sound management practices dictate that an
award process involving hundreds of millions of dollars be properly planned, coordinated, and
controlled. However, 98 of 102 (96 percent) of the awards, valued at nearly $381 million, were
expedited through NIST’s award process between July and September 1995. The Congress had
greatly increased the ATP budget for FY 1995 (see Appendix A), which resulted in many more
projects being selected for funding than in previous years.

After ATP-established Source Evaluation Boards spent up to four months rigorously reviewing
and selecting FY 1995 ATP project proposals, the selections were provided to the grants office
for financial review and final award processing. Because the end of the fiscal year was
approaching, grants office personnel did not have sufficient time to complete their financial
reviews. In addition, NIST employed a two-step award process whereby ATP officials publicly
announced projects selected for funding and sent letters to successful applicants notifying them of
their selection before grants specialists scrutinized project costs. This announcement and
notification method implied that budgets were already approved, thus creating difficulties for
grants specialists if questions arose later. Because grants specialists were not members of Source
Evaluation Boards, they had little opportunity to provide early and substantive input in the project
proposal review and selection process.

Of a sample of 26 of the 102 of ATP awards resulting from the FY 1995 competitions, we found
that 21 award agreements were issued with contingency clauses. Of the 21 awards, 16 contained
contingencies because they lacked a signed joint venture agreement, an approved final budget, or
an OMB-approved accounting system. Our sample also identified about $58,000 for one project
disbursed prior to resolution of the contingency even though the award specifically stated that no
federal funds were to be disbursed until the contingency was satisfied.



                                                14
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




NIST believed it was obligated to quickly finalize ATP awards once they had been publicly
announced. Specifically, NIST had already publicly announced projects selected for funding and
sent notification letters to successful applicants. NIST also believed that being selected for ATP
funding could have a major impact on small companies and, therefore, they should be informed as
soon as possible.

In addition, NIST did not have a system to identify and track outstanding contingencies and to
ensure resolution before funds disbursement. For example, NIST officials could not tell us how
many FY 1995 awards were issued with contingencies or how many were outstanding without
reviewing all ATP grant files. According to a grants office supervisor, there was no requirement
to track the status of outstanding contingencies. Rather, the supervisor randomly reviewed grant
files and determined whether grants specialists adequately tracked contingencies for purposes of
preparing their annual performance evaluations. ATP officials also told us that finalizing joint
venture agreements often took a long time because of the large number of participants and
concerns about intellectual property and patent rights, and this extended the time needed to
finalize ATP awards. Therefore, many award agreements were issued with contingency clauses
pending NIST receipt of signed joint venture agreements.

As a result of inadequate planning and coordination of the FY 1995 ATP competitions and
insufficient management controls over final award processing, grants office reviews of proposed
budgets were rushed and inadequate, compliance with the Federal Managers’ Financial Integrity
Act was not assured, and government assets were not properly protected when about $58,000
was disbursed before resolving an outstanding award contingency.

Recommendations

To strengthen management control over future ATP awards, we recommend that the Acting
Director, NIST:

       1.      Ensure that ATP awards are announced and notification letters are sent to
               successful applicants only after grants specialists have completed their financial
               reviews and final award process work.

       2.      Direct the appointment of grants specialists to ATP Source Evaluation Boards to
               demonstrate the importance of their work, and to involve them earlier and more
               substantially in the ATP proposal review and selection process.




                                                 15
Advanced Technology Program Needs                                                      Audit Report
Financial and Management Improvements                                                    July 1997




       3.      Ensure the development and implementation of a system to identify and track ATP
               award agreements with contingency clauses to prevent the disbursement of funds
               to recipients before all contingencies are resolved.

Agency Response and OIG Comment

Recommendation No. 1: NIST conceded that ATP awards were publicly announced before the
final negotiations were completed by the Grants Office. However, NIST stated that it disagreed
that the announcement and notification method implied that budgets were already approved. All
Department of Commerce press releases contained a statement that awards were contingent on
the signing of formal agreements between NIST and the recipients. This involved the final
negotiation of the budget by the Grants Office.

In agreeing to implement the recommendation, NIST stated that it will make every effort to
coincide award announcements with the completion of the Grants Office’s award process work.
The Grants Office will continue to work with ATP to coordinate the award announcements,
notification letters, and the timing of the actual award. The Grants Specialists will also take a
more active role after the semi-finalists are identified to complete their budget analyses of the
semi-finalists’ proposals and raise question prior to the semi-finalists’ oral reviews. Previously,
the Grants Officer or Grants Specialist attended the SEB briefings for the selecting official to
provide comments/concerns of all semi-finalist proposals. As discussed above, the Grants Office
staff will continue to review all semi-finalists proposals, conduct budget analyses, and contact the
semi-finalists earlier in the process for any additional budget details/breakdown needed for
negotiation purposes to expedite the award process. The Grant Specialists will also continue to
conduct the following for all semi-finalists proposals in an effort to expedite the award clearance
process: 1) Review the Dun & Bradstreet reports, and debarment and suspension and
Departmental accounts receivable listings; 2) Obtain OIG and Bureau of Export Administration
clearances; 3) Obtain pertinent information from semi-finalists related to budgetary issues or joint
venture agreements; and 4) Prepare the Federal Assistance Information Sheets (FAIS) for FARB
clearance (including legal clearance).

The actions cited by NIST in response to the recommendation meet the intent of the
recommendation. However, we continue to take exception to NIST's contention that premature
announcement does not imply that budgets are already approved. The Grants Officer review and
evaluation of proposed budgets and business plans, along with the technical evaluations, are
important components to deciding not only how much to award, but whether the project’s goals,
objectives, and methodologies are feasible as proposed, and even whether the grant should be
awarded. The ATP program is a competitive process and the business review is an integral part
of deciding which applicants will be successful.


                                                 16
Advanced Technology Program Needs                                                     Audit Report
Financial and Management Improvements                                                   July 1997




Recommendation No. 2: NIST disagreed with the statement that the Grants Specialists were not
members of the Source Evaluation Boards (SEB) and that they had little opportunity to provide
early and substantive input in the project proposal review and selection process. Each SEB
appointment memorandum signed by the ATP selecting official stipulates: "The Grants Officer,
Sharon Green (Acquisition and Assistance Division), and/or designated members of her staff, will
be an ex-officio member of the SEB and will provide support to the SEB on Federal assistance
and financial issues." Additionally, the Grants Specialists have served as Executive Secretaries to
the SEB and provided critical financial assistance guidance. During the semi-finalist stage of the
review process, Grants Specialists review proposals, conduct costs analyses, and provide
questions to the SEB for the semi-finalists prior to oral reviews to address any budgetary
concerns or to provide additional supporting documentation. To expedite the award process, the
NIST Grants Office recently instituted a new procedure for Grants Specialists to contact semi-
finalists prior to the oral reviews to obtain any necessary additional or supporting budgetary
information.

NIST further stated that the Grants Officer (or designee) has served on the SEB as a non-voting
member from ATP’s inception. During the years, the Grants Office has been taking a more active
role and will continue to provide significant contributions to the ATP SEB review process.

We do not disagree with anything that NIST has stated in its response to the draft report finding.
The premise behind this recommendation is that we found the Grants Office and business review
clearly played a subordinate role in the process of evaluation and selection of grant recipients.
The intent of the recommendation is that NIST recognize the important and sometimes pivotal
role of the business review in making selection decisions. It was in response to our discussions
with NIST officials during the course of our audit that NIST instituted new procedures for the
Grants Office to be more substantively involved, and involved much earlier in the evaluation
process. For that NIST is to be commended. The actions taken by NIST, if continued as
proposed, meet the intent of the recommendation.

Recommendation No. 3: NIST agreed that its Grants Office did not have a formal system in place
to identify and track outstanding contingencies. However, NIST disagreed with the draft audit
report’s statement that NIST disbursed $3 million under eight awards before ensuring that the
recipients met all program financial requirements and that NIST did not properly safeguard $3
million of government funds. Based on the review of the award files identified by the OIG, only
$57,897 was actually disbursed under one award prior to resolution of all contingencies.

NIST further stated that the Grants Office is in the process of developing a database to identify
awards with contingency clauses. Future award files containing contingencies will be flagged with

                                                17
Advanced Technology Program Needs                                                       Audit Report
Financial and Management Improvements                                                     July 1997




notations over the internal financial status reports to alert Grants Specialists not to process
payment requests until all contingencies have been satisfied. Also, by instituting new procedures
in the Grants Office for consulting with semi-finalists early in the review process to resolve
outstanding budgetary and grants-related issues, the need for contingency clauses will be
minimized or even obsolete.

Based upon NIST's response, we gathered additional current information which supported NIST's
contention that only $58,000 was disbursed under one award prior to resolution of all
contingencies--not $3 million as stated in our draft report. We have revised the report
accordingly. At the same time, we note that we only sampled about one-fourth of the ATP
awards resulting from the FY 1995 competitions. Thus, considering the weaknesses which
existed in the internal controls, it is possible that there are other instances where funds could have
been disbursed prior to the resolution of all contingencies. Nevertheless, NIST generally
concurred with the recommendation. The actions proposed by NIST, if properly implemented,
will meet the intent of the recommendation.




                                                 18
Advanced Technology Program Needs                                                                     Audit Report
Financial and Management Improvements                                                                   July 1997




                                                                                                  APPENDIX A


                                         ATP Budget History
                                         (dollars in millions)

                          Fiscal Year                                                Amount
                               1990                                                     $ 10.0
                               1991                                                       37.0a
                               1992                                                       49.4a
                               1993                                                       67.9
                               1994                                                      199.1
                               1995                                                     340.5b
                               1996                                                      221.0
                               1997                                                      225.0
                               1998                                                      275.6c
                              Total                                                  $1,425.5

             a
               Includes funding for administrative oversight that was provided in a separate budget
               item in these years.
             b
                Originally funded at $430.7 million; $90 million was rescinded on April 10, 1995;
               additional funds were rescinded as part of a government-wide administrative and
              travel rescission.
             c
                Amount represents the President’s FY 1998 budget submission to the Congress.

             Sources: NIST-ATP-96-2, The Advanced Technology Program: A Progress Report
             on the Impacts of an Industry-Government Partnership, April 1996; and
             NIST Budget Office data.
Advanced Technology Program Needs                                       Audit Report
Financial and Management Improvements                                     July 1997




                                                                    APPENDIX B



          New ATP Awards Resulting from FY 1994 and FY 1995 Competitions
                               (dollars in millions)

  Year of ATP        Total Announced Awards        Total OIG Reviewed
  Competition
                       Number           Amount      Number         Amount
    FY 1994                  86          $298.7          11         $101.5
    FY 1995                 102           411.2          13             88.7
      Total                 188          $709.9          24         $190.2
Advanced Technology Program Needs                                    Audit Report
Financial and Management Improvements                                  July 1997




                                                                    APPENDIX C


                  New ATP Awards by Specific FY 1995 Competition
                              (dollars in millions)

                      Total Announced Awards            Total OIG Reviewed
     ATP
  Competition            Number         Amount           Number         Amount

      95-01                    16          $35.8               2               $7.0
      95-02                    15              54.2            3               15.7
      95-03                     6              38.1            2               12.3
      95-04                     6              55.0            2               15.8
      95-05                     9              50.7            2               18.9
      95-06                     7              12.7            2                4.8
      95-07                     8              19.9            2                3.8
      95-08                     7              22.6            2                9.0
      95-09                     7              13.9            2                3.9
      95-10                    10              62.9            3               50.4
      95-11                     7              14.7            2                4.2
      95-12                     4              30.7            2               13.0
      Total                   102         $411.2              26             $158.8
